No.

IN THE
SUPREME COURT OF THE UNITED STATES

roarjUfli’A. fl-rflflAf js Ae.3:rrx<, — PETITIONER
(Your Name)
VS.
Ijls

?m

— RESPONDENT(S)

PROOF OF SERVICE
Tj micrin & L PICA O.AL.ZS AH3LF£r3iS>
, do swear or declare that on this date,
\Tov.r>i
U4V\
20 31 , as required by Supreme Court Rule 29 I have

3

served the"enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
S t^T£

Attta r-ai - A
A ) kTf? <=> I

Mr

fTTT ^

Qa\

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

r

3

,20.21

CERTIFICATE OF SERVICE

I» the undersigned, hereby certify that pursuant to Rule 5(b)(2)(C) of the
Federal Rules of Civil Procedure, on this

3**!4k day of

v> rnk

o r

2020, I served a true and correct copy of the foregoing: PETITION FOR WRIT OF
CERTIORARI: MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS; AFFIDAVIT OR
DECLARATION IN SUPPORT OF MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS Upon:
the United States Supreme Court, 1 First Street N.E., Washington, DC 20543. One
copy upon the Solicitor General of the United States, Department of Justice, 950
Pennsylvania Ave. N.W., Rm 5614, Washington, DC 20580, and one copy upon John S.
Pallas, Office of the Attonrney General of Michigan, P.O. Box 30217, Lansing, Michigan
48909. By submitting same to a designated civilian employee at the Oaks Correctional
Facility, 1500 Cabarfae Highway, Manistee, Michigan 49660 for prompt processing
and mailing by authorized prison personnel within the facility mailroom, with
sufficient first class postage affixed, and it shall be deemed filed as of the
above date per the federal "mailbox rule." Houston v. Lack, 487 U.S. 266 (1988),
and pursuant to 28 U.S.C* § 1746.
Respectfully Submitted,

K rssyjaiL D. GRIFFIS SI

IV- 3 4—

h xa.

Date:

MDOC #235794
Oaks Correctional Facility
1500 Cabarfae Highway
Manistee, Michigan 49660

▲

